<html>
<title> - POACHING AND TERRORISM: A NATIONAL SECURITY CHALLENGE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






         POACHING AND TERRORISM: A NATIONAL SECURITY CHALLENGE

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2015

                               __________

                           Serial No. 114-25

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-308 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Judith G. Garber, Acting Assistant Secretary, 
  Bureau of Oceans and International and Environmental and 
  Scientific Affairs, U.S. Department of State...................    11
Mr. Robert Dreher, Associate Director, U.S. Fish and Wildlife 
  Service, U.S. Department of the Interior.......................    22
The Honorable John Cruden, Assistant Attorney General, 
  Environment and Natural Resources Division, U.S. Department of 
  Justice........................................................    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Material submitted for the record.     5
The Honorable Judith G. Garber: Prepared statement...............    14
Mr. Robert Dreher: Prepared statement............................    24
The Honorable John Cruden: Prepared statement....................    33

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53

 
         POACHING AND TERRORISM: A NATIONAL SECURITY CHALLENGE

                              ----------                              


                       WEDNESDAY, APRIL 22, 2015

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3 o'clock 
p.m., in room 2172, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record 
subject to the length limitations in the rules.
    I will proceed with my opening statement. Elephant and 
rhino populations in Africa are being decimated by poachers 
looking for high profits with little risk and little 
consequences. Between 1990 and 2005, poachers killed an average 
of 14 rhinos each year in South Africa. In 2013 and again in 
2014, they killed over 1,000 rhinos each year. The black rhino 
population has declined by 93 percent since the 1960s. A total 
of only five white rhinos are left in the whole world today. 
Elephants are in just as much trouble. And I have a slide, and 
members of the panel also have this poster in front of you 
somewhere that you can refer to.
    As you can see from this map by National Geographic, there 
were approximately 1.3 million elephants in Africa in 1979. The 
light brown areas are where elephants roamed in 1979. The dark 
brown areas are where they roamed in 2007. The dark brown areas 
are just a fraction of the light brown areas. We see that the 
elephants and their population are being diminished 
considerably.
    I also have a poster here of Satao, the elephant. Some say 
he was the oldest elephant in Africa. We don't know. His tusks 
were so long that they hit the ground before poachers got to 
him and killed him for the tusk and left the rest of him in 
Africa.
    The elephant population has dropped 60 percent since 1979, 
and poaching numbers rise. Why? It is all about the money. The 
black market price of ivory in Africa is anywhere between 
$1,000 and $1,800 per pound. A rhino horn is now worth about 
$60,000 per kilogram. That is 2.2 pounds. That is twice the 
value of gold and platinum and more than cocaine or diamonds. 
In all, the illegal wildlife trade is estimated as a $10 
billion to $20 billion a year business. With all the money, it 
is no surprise that poachers are using more advanced weaponry 
that leaves park rangers looking like Little Bo Peep trying to 
fight against Arnold Schwarzenegger. Poachers can now swoop 
down in the dead of night in helicopters, with high-powered 
rifles. Even if the traffickers are caught and convicted, the 
penalties are far less than if the traffickers were convicted 
of crimes in drug trafficking. Punishments in most countries 
are little more than a slap on the wrist or none at all. Low 
risk and high profits make for a deadly combination.
    Demand is being driven mainly from the Asian countries. 
Once again, there is a slide in front of our panelists, and it 
is on the monitor for those in the audience. This map is from 
an NGO called TRAFFIC. The main ivory seizures follow trade 
routes from Africa to Asia. Ivory is shipped out in places like 
Tanzania, Kenya, and South Africa; trafficked through the 
Philippines and Malaysia; and ends up in Thailand and, yes, 
China as well.
    Vietnam is the largest consumer of rhino horns that are 
poached. Users there believe the rhino horn can cure everything 
from cancer to hangovers. Many see it as a status symbol. I 
understand the rhino horn is ground down into a powder and put 
in different products and is sold at an expensive rate. People 
want it because there is a demand. They believe there is some 
magic, so to speak, or benefit from the rhino horn powder.
    Criminals and thugs are not the only bad actors involved in 
this dirty business, and that is what this hearing is about 
today. Terrorist groups, such as Al Qaeda affiliate Al Shabaab, 
Boko Haram, the LRA, and others, are all involved in poaching. 
We do not know to what extent these groups are involved, how 
much money they make off of poaching, or their interactions 
with criminal and smuggling groups. We can't solve the problem 
if we don't understand it.
    The intelligence community needs to commit more resources 
to understand this problem. The Obama administration released a 
strategy to combat wildlife trafficking in 2014, February. It 
took another year to develop an implementation plan to execute 
the strategy. The strategy and the implementation plan are 
important steps in the right direction, but we need to do a 
whole lot more.
    While there are sections devoted to measuring progress, 
nowhere in the plan is there a commitment to rigorous 
evaluations. Impact of those evaluations are the only way that 
we can know if our programs are working. Nor is there a 
timeline mentioned anywhere in the plan.
    The Achilles' heel of the implementation plan could be its 
lack of dedicated resources. The administration needs to have a 
crosscutting budget that will outline exactly how much money we 
are spending on anti-poaching efforts.
    There are other steps we can take. One easy step is to 
increase the penalty for those caught trafficking wildlife so 
as not to let them come into the United States. A consular 
official should be able to reject a visa for those that have 
been convicted of wildlife trafficking. The Treasury Department 
should aggressively sanction wildlife traffickers. This does 
not need to be an act of Congress. The administration has the 
authority to do this.
    The problem is so bad that those in Africa that are trying 
to enforce the law have very little resources. They are 
unarmed. Several of the rangers that work in these national 
parks are murdered each year. The bad guys have, as I 
mentioned, helicopters, automatic weapons. They shoot these 
animals from the air, and there is very little defense against 
them that is being taking place in my opinion.
    We need to empower law enforcement. Right now a drug 
trafficker's profit is going to help a designated foreign 
terrorist organization, and our law enforcement can go after 
the drug trafficker regardless of whether or not there is a 
nexus back to the U.S. We now know wildlife trafficking money 
goes to help terrorists, like the drug money does. We should 
change U.S. Law so law enforcement can go after wildlife 
traffickers just like it can go after international drug 
traffickers.
    Strengthening law enforcement and reducing demand is a 
solution to this problem, but it will not be quick. If we don't 
act, terrorists will keep taxiing in big profits while driving 
elephants and rhinos into extinction. Meanwhile, they find 
money to further their terrorist enterprises throughout the 
world.
    I will now yield to the ranking member. I didn't say Yankee 
member. I said ranking member.
    Mr. Keating. As long you didn't say Yankee member.
    Mr. Poe. For his opening statement.
    Mr. Keating. Thank you, Mr. Chairman, and thank you for 
conducting this hearing.
    I would also like to thank our witnesses for being here 
today. It is important we have each of the co-chairs of the 
President's Task Force on Combating Wildlife Trafficking this 
afternoon. We understand your schedule is in very high demand, 
and we appreciate your willingness to accommodate this 
important hearing. As we honor Earth Day today, it is 
particularly timely that this afternoon's hearing will discuss 
an integral facet of international conservation effects.
    Illicit trade in wildlife is a serious global environmental 
crime with significant negative impacts for endangered species 
protection, ecosystem stability, and biodiversity conservation. 
Unfortunately, this problem is only growing. It is estimated 
that illegal wildlife trafficking is the fourth largest global 
illegal activity after only narcotics, counterfeiting, and 
human trafficking.
    Of particular concern is the rise in demand for products 
from illegally poached animals, particularly from elephants and 
rhinoceroses in China, Vietnam, and other destination 
countries. This has dramatically increased the prices and led 
to a rapid expansion of illicit markets. In fact, this illegal 
trade is believed to have more than doubled since 2007. The 
black market price of rhino horn is over $30,000 per pound, 
more than the value of platinum, and poaching is bringing 
rhinoceroses to the edge of extinction.
    Wildlife trafficking is also a real and increasing threat 
to our national security. Ivory like so many blood diamonds, is 
funding many armed fighters in Africa. Reports indicate that 
terrorists and militant groups--such as Al Shabaab in Somalia; 
the Lord's Resistance Army (LRA) in Central Africa; and 
Janjaweed in Sudan and Chad--are involved in poaching elephants 
and dealing in ivory. There are also reports that militants 
affiliated with Al Qaeda are involved in the illegal trade of 
ivory, tiger pelts, and rhino horns in India, Nepal, Burma, and 
Thailand.
    Further, much of the global illegal trade in wildlife is 
run by transitional criminal organizations, which are attracted 
to wildlife trafficking because of its low risk of detection, 
high profits, and weak penalties. These organized criminal 
groups often use smuggling routes, money-laundering schemes, 
and other techniques similar to those of drug traffickers.
    According to the U.S. intelligence community, the illicit 
ivory and rhino horn trade is enabled by official corruption in 
many source countries which undermines the rule of law and 
contributes to border instability. There are even reported 
instances where government military forces are directly 
involved in poaching and wildlife trafficking, such as in the 
Democratic Republic of the Congo, South Sudan, Tanzania, 
Uganda, and Zimbabwe. And it is important that we do not 
overlook the role of illegal, unreported, and unregulated 
fishing, including shark finning and how that plays to the 
condition, and how it surrounds additional illicit activity, 
including piracy, smuggling, and illegal trafficking of weapons 
and people. Each year it is estimated that 100 million sharks 
are killed, and stripped of their fins, to meet demand for 
shark fin soup, a delicacy in fine menus across China.
    Indeed, these activities are inexorably linked with illegal 
fishing activities often supported by forced labor and human 
trafficking of migrant traffickers and children, both in the 
oceans and the Great Lakes region in Africa. The United States 
needs to know more about these links between militant groups, 
transnational organized crime, and corrupt state actors in the 
illegal wildlife trade.
    In responding to this growing environmental and national 
security threat, I am encouraging the administration's recent 
implementation plan giving effect of the National Security 
Strategy for Combating Wildlife Trafficking. I look forward to 
learning more today about our progress and meeting the 
objectives of this implementation plan, particularly with 
respect to efforts to assist our international partners in 
strengthening global enforcement and reducing demand for 
illegally traded wildlife.
    I also look forward to an update on the potential changes 
to the U.S. Fish and Wildlife Service regulations and further 
restrictions surrounding ivory trade within the United States 
and whether these regulations will provide clarity for antiques 
and other proper commercial and educational uses of ivory.
    Thank you, again, Mr. Chairman, and I yield back.
    Mr. Poe. I thank the gentleman for his opening statement.
    I want to introduce into the record an article that was 
written today in Business Insider by Gretchen Peters and Juan 
Zarate.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    You probably know these individuals. I will just read two 
short sentences: On Earth Day 2015, prospects for many of the 
planet's most iconic species are bleak. Unless poaching rates 
deadline across Africa, the rhino and elephant will be extinct 
within a decade. The world has lost 97 percent of its tigers in 
the last 50 years, and the great apes are on the pace to 
disappear within a generation. It is a national security 
crisis.
    Anyway, I will now introduce our three experts: Ambassador 
Judith Garber is Acting Assistant Secretary for the Bureau of 
Oceans and International Environmental and Scientific Affairs 
at the Department of State. Ambassador Garber has held 
diplomatic positions all over the world, including serving as 
the U.S. Ambassador to Latvia.
    Robert Dreher is Associate Director of the U.S. Fish and 
Wildlife Service at the Department of the Interior. Before 
joining the Fish and Wildlife, Mr. Dreher served as acting 
assistant attorney general for the Environment and Natural 
Resources Division of the Department of Justice.
    Mr. John Cruden is the new Acting Assistant Attorney 
General for the Environmental and Natural Resources Division at 
the Department of Justice. Mr. Cruden has a long history of 
public service at the Department of Justice and in the 
military.
    Ambassador Garber, we will start with you for your opening 
statement of 5 minutes.

 STATEMENT OF THE HONORABLE JUDITH G. GARBER, ACTING ASSISTANT 
SECRETARY, BUREAU OF OCEANS AND INTERNATIONAL AND ENVIRONMENTAL 
        AND SCIENTIFIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Garber. Thank you, Mr. Chairman.
    Good afternoon, Chairman Poe and Ranking Member Keating. I 
greatly appreciate the opportunity to appear before you today. 
With your permission, I would like to submit my written 
statement for the record.
    Mr. Poe. Without objection, it will be made a part of the 
record.
    Ambassador Garber. At the outset, let me extend my thanks 
to the subcommittee for holding this hearing today, which marks 
the 45th anniversary of Earth Day. Events are being planned 
today in the United States and around the world, including by 
our missions overseas to raise awareness and concern for the 
environment, including wildlife. Wildlife trafficking is a 
multi-billion-dollar criminal enterprise that poses a serious 
and urgent threat to conservation and national security. The 
increasing involvement of armed groups and criminal elements of 
all kinds, including some terrorist entities, threatens the 
peace and security of fragile regions, strengthens illicit 
trade routes, and destabilizes economies and communities that 
depend on wildlife for their livelihoods.
    Recognizing the scale and seriousness of this problem, I am 
determined that the United States should be part of the 
solution. President Obama issued an Executive order that 
established an interagency task force co-chaired by the 
Departments of State, Justice and Interior, and charged it with 
developing a strategy to guide U.S. efforts. The resulting 
National Strategy for Combating Wildlife Trafficking fortifies 
U.S. leadership on countering the global security threat posed 
by wildlife trafficking. It directs our efforts to, one, 
strengthen domestic and global enforcement; two, reduce demand 
at home and abroad; and, three, build international commitment, 
cooperation, and public-private partnerships to combat wildlife 
trafficking.
    As you both noted, the task force has also developed an 
implementation plan for the strategy. Released in February, the 
plan is our road map going forward. It lays out specific next 
steps, identifies lead agencies for each objective, and defines 
how we will measure our progress. The plan demonstrates that we 
are in this for the long haul.
    Our work over the past year has been intensive. I will just 
highlight a few of the key actions the Department of State has 
taken. We are expanding our existing efforts to improve cross-
border law enforcement cooperation, strengthen wildlife 
trafficking legislation, and enhance wildlife management. We 
are providing critical training to park rangers, police, custom 
officials, prosecutors, and judges. For example, the Department 
recently supported INTERPOL police investigative training in 
Vietnam, a key demand country.
    The strategy also recognizes that we must address demand 
that is driving poaching to unprecedented levels. We must raise 
awareness about the devastating impacts of wildlife 
trafficking. To this end, we are working closely with NGOs, 
many of whom have ongoing public outreach campaigns, as well as 
the private sector. For example, we are providing over $37,000 
to support the NGO WildAid for its African Wildlife Pride 
campaign to focus on the urgent need to stop poaching. We are 
continuing to catalyze political will and action by 
highlighting wildlife trafficking in multilateral fora.
    Last year we were able to include language addressing 
trafficking in two Security Council resolutions sanctioning 
African armed groups. In December, at a conference in Tanzania, 
Under Secretary Novelli jump started regional cooperation in 
East Africa to address the poaching crisis.
    We have made significant progress in interactions with 
China. Last July, during the U.S.-China Strategic and Economic 
Dialogue, Secretary Kerry and China's Vice Premier Liu 
confirmed their commitment to stamp out illegal trade in 
wildlife. In November, President Obama and President Xi 
reaffirmed this commitment and agreed to cooperate in the areas 
of e-commerce, public outreach, joint training, and law 
enforcement. Last month I met with Chinese officials in Beijing 
to push these issues forward, as well as with Chinese wildlife 
NGOs who expressed appreciation for our attention to these 
issues.
    Moving forward, we are also leveraging trade agreements to 
press countries and regions which account for a sizeable 
portion of the illegal trade in wildlife to live up to their 
commitments to combat wildlife trafficking and strengthen 
wildlife conservation. Indeed, the administration is pursuing 
such obligations in the Trans-Pacific Partnership Agreement 
with 11 other countries in the Asia-Pacific region, as well as 
the Transatlantic Partnership Agreement negotiations with the 
European Union. These commitments will be fully enforceable, 
including through recourse to trade sanctions, which will be a 
powerful incentive for parties to match words with actions.
    In closing, let me just say that we are working across the 
U.S. Government to focus our international investments to 
combat wildlife trafficking in the most strategic and effective 
way possible. Congress has shown great leadership on this 
issue, and we truly appreciate your support. We look forward to 
working closely with you in our continuing efforts to stop this 
global scourge.
    I appreciate the opportunity to appear before you today, 
and I will be happy to answer any questions you may have. Thank 
you.
    [The prepared statement of Ms. Garber follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Mr. Poe. Thank you, Ambassador.
    Mr. Dreher, we will hear your opening statement.

 STATEMENT OF MR. ROBERT DREHER, ASSOCIATE DIRECTOR, U.S. FISH 
     AND WILDLIFE SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Dreher. All right. So I lost 5 seconds without a 
microphone. I am sorry.
    Good afternoon, Mr. Chairman and Ranking Member Keating, 
and members of the subcommittee. I am Bob Dreher, Associate 
Director of the U.S. Fish and Wildlife Service.
    I appreciate the opportunity to be here today, on Earth Day 
fittingly, to discuss the current wildlife trafficking crisis 
that threatens to wipe out the African elephant, rhinoceros, 
and a host of other species around the globe. As you noted, 
elephants are being slaughtered for ivory today at 
unprecedented rates, and the poaching of rhinos for their horns 
has surged upward.
    Wildlife trafficking once was predominantly a crime of 
opportunity committed by local individuals or small groups. 
Today it increasingly involves highly organized criminal 
networks capable of moving large commercial volumes of illegal 
wildlife products. Through our law enforcement investigations, 
we have seen direct links between wildlife trafficking and 
organized crime. My written testimony highlights some of our 
work disrupting large-scale wildlife trafficking networks: 
Operation Crash, for example, an ongoing nationwide criminal 
investigation led by the service that focuses on U.S. 
involvement in the black market for rhino horn and elephant 
ivory.
    I wanted to give the subcommittee members a more graphic 
sense of what is happening, and I have some slides. The first 
two are photos illustrating the brutal slaughter of elephants 
and rhinos. And we have seen these pictures before.
    What I want to point out is that this sort of wanton 
killing is no longer just the action of local individuals. It 
is increasingly the work of organized criminal networks who 
send heavily armed teams into protected areas with commissions 
to take elephant ivory or rhino horn, who organize the shipping 
of the still-bloody ivory and rhino horns through international 
channels, and who deliver these highly valuable products to 
buyers in undercover markets ranging from East Asia to the 
United States.
    Photo 3, to give you a sense of the scale of these 
operations, these photos show the evidence seized in 1 day in 
one of our Operation Crash cases from safety deposit boxes, 
residences, and businesses in the United States in southern 
California: Over $1 million in cash, $1 million in gold, as 
well as rhino horns, and other wildlife parts.
    The next three slides just show a number of the individuals 
and businesses convicted here in the United States as part of 
Operation Crash. What I think you can see is that what was once 
a local or regional problem has become a global crisis, as 
increasingly sophisticated, violent, and ruthless criminal 
organizations have branched into wildlife trafficking.
    To address this escalating wildlife trafficking crisis, the 
Service is building on decades of its work to increase our 
efforts in our Office of Law Enforcement and our International 
Affairs Programs. We are working across the U.S. Government to 
take a coordinated approach. In February, the White House 
released the implementation plan for the National Strategy for 
Combating Wildlife Trafficking. The implementation plan 
reaffirms our Nation's commitment to work in partnership with 
governments, local communities, nongovernmental organizations, 
and the private sector, to address wildlife trafficking.
    We took an enormous step forward in 2013 when the United 
States destroyed its 6-ton stock of confiscated elephant ivory, 
sending a clear message we will not tolerate wildlife crime. 
Several other governments have since followed suit, and we now 
are in a much better position to work with the international 
community to crack down on poaching and illegal wildlife trade.
    I would also like to commend Congress for passing 
legislation last year to reauthorize the Save Vanishing Species 
stamp. Since the stamp's inception in 2011, more than 26 
million stamps have been purchased by the American public, 
generating more than $2.6 million for conservation of 
elephants, rhinos, tigers, great apes, and marine turtles.
    With assistance from the State Department, we have begun 
stationing Service law enforcement agents at U.S. Embassies as 
international attaches to coordinate investigations of wildlife 
trafficking and support law enforcement capacity building. The 
first attache began work in Thailand last year. Others will be 
located in Tanzania, Peru, Botswana, and China. We are 
continuing to work on administrative actions called for by the 
National Strategy to eliminate most commercial trade in 
elephant ivory in the United States with certain narrow 
exceptions, making it harder for criminals to sell poached and 
trafficked ivory.
    We are also providing technical assistance and grants to 
build in-country capacity. A substantial portion of the funding 
awarded through the multinational species conservation funds is 
invested in projects aimed at combating wildlife crime through 
improved law enforcement, anti-poaching patrols, demand 
reduction, and economic alternatives.
    While we have made great strides recently to address 
wildlife trafficking, there is still much work to be done. The 
President requested $75.4 million, an increase of $8 million, 
for the Service's Office of Law Enforcement in Fiscal Year 2016 
to combat expanding wildlife trafficking.
    Wildlife crime still offers low risk and high rewards 
compared to drug and weapons trafficking. We need to change 
that calculus by stiffening penalties for wildlife crime.
    Thank you for the opportunity to present testimony today. I 
appreciate the subcommittee's support of our efforts, and I 
would be pleased to answer any questions you may have.
    [The prepared statement of Mr. Dreher follows:]
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Mr. Dreher.
    Mr. Cruden, your opening statement.

  STATEMENT OF THE HONORABLE JOHN CRUDEN, ASSISTANT ATTORNEY 
   GENERAL, ENVIRONMENT AND NATURAL RESOURCES DIVISION, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Cruden. Chairman Poe and Ranking Member Keating, thank 
you again for the opportunity to discuss the work of the 
Environment and Natural Resources Division of the Department of 
Justice with respect to combating illegal wildlife trafficking. 
You have my prepared testimony, which I request that you add to 
the record.
    But I want to highlight three things out of that testimony: 
I want to talk to you a little bit about the key role of our 
environmental prosecutors, our environmental criminal section--
we are prosecuting wildlife criminals--and then, finally, a 
little bit following up on one of your questions, and that is 
our work in training and building capacity abroad.
    The Environment Division through the Environmental Crime 
Section is a recognized leader in the fight against wildlife 
trafficking. The recent Executive order on combating wildlife 
trafficking brought increased attention to the severity of 
really a global crisis that we are facing now. Wildlife 
trafficking, which includes poaching protected species and 
trafficking in their parts, has become a highly profitable 
crime with profits in the billions of dollars. Illegal activity 
at this scale has devastating impacts. It threatens security. 
It hinders sustainable economic development. It undermines the 
rule of law. And the illicit trade in wildlife is decimating 
many species worldwide, and some of those species, including 
such majestic animals as rhinoceroses, elephants, great apes, 
sharks and tigers, face extinction in our time or maybe our 
children's time.
    The National Strategy for Combating Wildlife Trafficking 
identifies three priorities: Strengthening enforcement, 
reducing demand, and building global cooperation. Just last 
month I had the honor of being, along with Bob Dreher, at the 
U.S. delegation to the Kasane Conference in Botswana on Illegal 
Wildlife Trade, where the ranking leaders from more than 30 
nations came together to discuss both the problem and the need 
to work together to address the crisis. I spoke on behalf of 
the United States about our efforts to combat wildlife 
trafficking, but I had the opportunity then to discuss with 
many African leaders the challenges that they are facing. My 
testimony today is influenced by those comments.
    You know this: At DOJ, we prosecute. The Environment 
Division along with U.S. attorneys across the country in 
partnership with Fish and Wildlife Service is responsible for 
prosecuting wildlife trafficking crimes, including related 
crimes, things like smuggling, money laundering, conspiracies. 
This is serious crime, and we treat it seriously. And we seek 
significant periods of incarceration, fines, restitution, 
community service to help mitigate the harm caused by the 
offense; forfeiture of wildlife and instrumentalities used to 
commit the offense; and, where possible, disgorgement of the 
proceeds of the illegal conduct.
    You just heard from Bob Dreher about Operation Crash, which 
was a multi-agency effort. It resulted in more than 20 
successful prosecutions, and you saw some of the defendants in 
the slide that was presented. I put in my prepared testimony a 
whole series of descriptions of other wildlife criminal 
enforcement that we have done in the relatively recent past. I 
just wanted to give you an idea of what is happening on the 
ground right now. I don't think there will be any question of 
this, that we are recognized throughout the world as the leader 
in wildlife prosecutions.
    In addition to our own direct prosecution, however, we are 
also doing capacity building right now. Through the assistance 
of the State Department, we are developing a new program in 
Africa that will focus on wildlife trafficking. We are planning 
two regional programs: The first will go in Southeast Africa; 
the second in central West Africa. And we are focusing on 
prosecutors and judges.
    Just last week I met with some of the leaders of a new task 
force from Togo. We told them about what we were doing. They 
told us that is exactly what they needed. We are also 
participating extensively in trading in wildlife enforcement 
networks. These are the networks of prosecutors who come 
together to try to share experience and gain from others.
    We are proud of what we have done, but there is so much 
more to do. We know that we need to be focusing our efforts on 
bringing down high-level traffickers, closing their networks, 
and disrupting the illegal funding flows. We are seeking to 
take the profit out of wildlife trafficking by using all the 
tools that are available to us. We look forward to working with 
you and Congress to strengthen our legal framework, and we 
would welcome the opportunity to talk about such steps as 
recognizing wildlife trafficking as a predicate crime for money 
laundering and RICO offenses. Another important step could be 
legislation authorizing forfeiture of all proceeds gained by 
illegal wildlife trafficking.
    In closing, the Department, working with other agencies, 
particularly those two that are sharing right now--Department 
of State and Fish and Wildlife Service--we look forward to 
vigorously prosecuting those who poach and traffic illegally in 
wildlife across the world.
    Thank you. Happy to answer any questions you might have.
    [The prepared statement of Mr. Cruden follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. I recognize myself for some questions and 
recognize you all for the answers. It is important that we, as 
you have all said, understand as Americans the consequences of 
doing nothing. The disappearance of elephants, it is hard to 
imagine that that would happen in this world, but it could.
    And as Mr. Cruden has said, in our lifetime and in our 
kids' lifetime, the only place they are going to see an 
elephant is in a Disney cartoon maybe because there won't be 
any. And rhinos are in worse shape and tigers as well.
    I am going to focus my questions on terrorism, terrorist 
groups, poaching, where they sell these items, and the money 
that is involved. Do we have any idea how many terrorist 
organizations are involved in Africa in the poaching business?
    Ambassador.
    Ambassador Garber. Thank you, Mr. Chairman. This is an 
illicit trade by its very nature. So, of course, it is 
something that it is difficult for us to have very firm 
knowledge about. There is no question that the shadowing 
adaptive financial flows that fund illicit crime and illicit 
activities are at play. We do have evidence that militant 
groups, such as the Lord's Resistance Army and Janjaweed, 
benefit substantially from illegal trade in wildlife. Some 
terrorist entities we believe are benefitting, but the details 
are very sketchy. By how much, it is very hard for us to know.
    Mr. Poe. I understand that in the Democratic Republic of 
the Congo, 150 park rangers have been killed since 2004, and 
according to the International Ranger Federation, worldwide, 
park rangers, two are killed every week that are protecting 
these parks where all these animals are. It seems to me that 
the Lord's Resistance Army, which you mentioned, is using 
Garamba National Park in the Democratic Republic of Congo as a 
base of operations. What can you say a little more specifically 
about the connections between the LRA and the ivory trade as a 
source of its financing?
    Ambassador Garber. I can say the Lord's Resistance Army is 
deriving significant revenue from poaching and illegal trade in 
elephants, and we have seen these activities intensify over the 
last 2 years.
    Mr. Poe. Under current law, the U.S. Government can deny a 
foreigner a visa if they are convicted of human trafficking, 
terrorist activity, violations of religious freedom. Do you 
think we should add wildlife trafficking to that list, 
Ambassador?
    Ambassador Garber. It is something that we could consider. 
We need--I think part of what we need to be doing is, as you 
said very clearly in your statement, Mr. Chairman, is that we 
really need to understand what is going on better and in more 
depth. And that is something that I think the National Wildlife 
Strategy and the task force has really done. We have seen the 
strategy and the whole-of-government approach truly elevate the 
attention that the intelligence community is giving this 
problem; we are being able to identify the gaps in what our 
knowledge is and where we need to focus that. And I think as 
that all becomes clear, we will be in a better position to 
really understand if that kind of a step is what makes the most 
sense at this time.
    Mr. Poe. If U.S. law enforcement suspects a foreign-owned-
and-operated outfitter of violating wildlife laws in a foreign 
country and the foreign country refuses to arrest or prosecute 
the owners and operators, does the United States have any 
enforcement actions, such as denying or freezing assets, Mr. 
Cruden?
    Can we do anything about that?
    Mr. Cruden. When we are bringing our prosecutions, we are 
doing it fundamentally under the Lacey Act and the Endangered 
Species Act. Under the Lacey Act, where we actually do look 
violations of host country laws, but we are looking at that 
with a nexus to us. They are violating the laws, and they are 
coming to the United States. And so that is the connection that 
we have right now.
    By the way, the Lacey Act is, in fact, a model for the rest 
of the world. In country after country that we are talking to, 
they are talking about whether or not they would emulate 
something like the Lacey Act, so I do not want to minimize its 
importance right now. But it does require that nexus to the 
United States before we would have the ability to prosecute.
    Mr. Poe. By ``nexus'' you mean what?
    Mr. Cruden. By coming into the United States. You are 
importing something into or exporting something out of the 
United States.
    Mr. Poe. We deal with international drug cartels, and my 
understanding is they don't have to physically be on the United 
States land to go and prosecute them if the money chain comes 
into the U.S. Is that right or not?
    Mr. Cruden. I believe that you are correct. Still the same 
issue, that there has to be some connection to the United 
States. But, by the way, under drug trafficking laws, those are 
a predicate offense to money laundering, an ability we really 
don't have under wildlife trafficking laws. So drug laws are, 
in fact, more powerful than some of our wildlife trafficking 
offenses, which is why I brought that up in my testimony, that 
that was something else that we would be interested in 
exploring with you.
    Mr. Poe. So, if I understand you correctly, if we could 
balance the enforcement with--using, let's use international 
drug trafficking. If we could have international wildlife 
trafficking be treated the same way to some extent as far as 
jurisdiction and enforcement, do you think that would help?
    Mr. Cruden. Similar to what we have for drug trafficking.
    Mr. Poe. Similar to what we have for drug trafficking. Not 
kind of merge the laws. Make the laws very similar.
    Mr. Cruden. I believe very clearly that wildlife 
trafficking, as you have stated, is a very serious crime 
similar to drug trafficking. And, therefore, we should be able 
to look at that and gain from that experience and benefit, and 
that might actually help us strengthen some of our laws. So I 
agree with you.
    Mr. Poe. And the same would be true of different terrorism 
laws because of the fact that these terrorist groups use the 
money to commit terror, maybe the Congress should explore 
expanding the trafficking issue because, as you have all said, 
this is a real problem. And it is the disappearance of certain 
wildlife soon if something is not done very quickly and 
effectively. Let me ask one more question, and I am going to 
yield to the ranking member for his questions.
    What countries are the worst offenders as far as 
cooperating in preventing wildlife trafficking in their 
country? Nobody wants to say? I will ask you one specifically. 
How about Tanzania? Is Tanzania doing a good job of protecting 
the wildlife in their parks?
    Mr. Dreher. I think the facts, there is an old saying about 
res ipsa loquitur. The issue here is that we know that recent 
data coming out of Tanzania from the Pan-African elephant 
survey shows that elephants are suffering enormous mortality in 
Tanzania and in their national parks in the areas of Selous and 
the Ruaha. They have a terrible poaching problem. And they are, 
at least at this point, from what we can tell, not able to 
control it. So they are working. We give them credit for 
engaging in this.
    And we are working with them. I mean, our Ambassador in 
Tanzania is very much engaged in working with the government 
officials there, including providing assistance and training 
from AFRICOM. I mean, we are doing as many things as we can to 
try to strengthen their capacity, but they face an enormous 
challenge. Right now, I mean, as you may know, a year ago the 
Fish and Wildlife Service concluded it could not allow the 
import of sport hunting trophies of elephants from Tanzania 
because we could not conclude that their management of the 
populations in Tanzania was stable and sustaining. So all of 
those, I think, indicate that that is a country with serious 
challenges.
    Mr. Poe. And the biggest problem is in Central Africa and 
South Africa--is that a fair statement--of where the poaching 
is taking place?
    Mr. Cruden, you nodded, so I will ask you.
    Mr. Cruden. I want to nod, and remember I said in my 
opening statement that some of my comments are affected by what 
African leaders said. African leaders that I talked to talked 
about in Tanzania as a transshipment place, and your map that 
you gave us shows that. So not only do they have a problem, but 
it is a place where it goes to other places.
    They also told us that they do go not directly to places 
like China or Vietnam because if you put China or Vietnam on 
your manifest, you are more likely to get checked at the 
customs office. So they put intermediary places like Malaysia 
or Philippines as a place that makes it less likely then that 
their illegal exportation of things like ivory will get looked 
at.
    So I agree with everything that Mr. Dreher said, but I also 
think it is relevant as a transshipment place as well in this 
whole concept of organized crime.
    Mr. Poe. All right. Thank you. Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    The National Strategy for Combating Wildlife Trafficking 
specifically refers to the need for new technologies to 
identify poaching hot spots and trafficking patterns. It also 
calls on agencies to work with local communities to strengthen 
reporting of these activities. I am aware of some existing 
high-tech international partnerships between conservation 
organizations. For example, the International Fund for Animal 
Welfare and the Kenya Wildlife Service recently launched a 
project, tenBoma, to use geospatial monitoring and pattern 
analysis to predict and prevent poaching incidents before they 
happen. How does the State Department plan to integrate 
projects like these into its work?
    Ambassador Garber. Well, we certainly think that everybody 
has to be part of the solution, and new technologies and 
innovation is a key part of moving forward. And this is not the 
State Department per se, but this really is a whole-of-
government approach; but my understanding, and I hope I am not 
going to do anything to steal someone's thunder, but it is my 
understanding that USAID today is going to be officially 
launching the Tech Challenge to be addressing this problem. So 
I hopefully won't have the Acting Administrator ready to take 
my head off by having announced that and maybe having stolen 
someone's thunder. I didn't see that it already happened today.
    But we are working very closely with the NGO community 
trying to bring strong ways forward. We are doing this not just 
on wildlife trafficking, but you also talked about in your 
comments about illegal IUU fishing and ways to be approaching 
that. And we are going to be hosting a meeting in May with 
several of the NGOs to look at ways we can use some of these 
same new technologies to be addressing that question as well.
    Mr. Keating. Do other witnesses want to comment on some of 
the high-tech assistance we can get?
    Mr. Dreher. There are varieties of tech, from high to low, 
that the folks in Africa that are fighting this problem really 
need. I mean, the high-tech things can include things as simple 
at night-vision scopes. A lot of the poachers are well-
equipped, well-equipped with military surplus hardware. It can 
include relatively high-cost things like helicopters for aerial 
surveillance, but it can also include training and just making 
sure that the rangers are being paid decent living wages. So 
there is a whole range of things they need, but they clearly 
are outgunned and I think out-tech'd right now.
    Mr. Keating. Drone technology helpful at all?
    Mr. Cruden. I mean, technology is--the GPS capability now, 
which is sweeping over Africa, will be enormously beneficial. 
They are working on fences. They are working on radar. They are 
using night-vision goggles, and all of those things are 
beneficial. But I will only, again, two things out of my Africa 
trip. One was a national park official telling me that their 
biggest challenge was they were outgunned. I thought maybe he 
was speaking metaphorically. I said, ``What do you mean?'' He 
said: ``I mean, they have rocket-propelled grenade launchers 
and automatic weapons, and we have World War II weapons.'' And 
so that was a challenge.
    But also on not so high tech but just telling you what 
better coordination, we met with the local pilots association, 
you know, all over Africa. And we were in Botswana. There are 
hundreds of these small planes that are just couriering people 
back and forth. And the pilot I met with said:

        ``We are banding together. This is important to us. 
        This is 15 percent of the gross national product of 
        Botswana, and it pays for our salary. We are reporting 
        to the government. We are getting together, and we will 
        tell them when we see suspicious activity in the area 
        because we know what strange vehicles look like, and we 
        know what strange people look like.''

    So I think the high tech really helps, but I also think 
that low-level activity can be enormously beneficial. And they 
are just getting there now.
    Mr. Keating. I know that the U.S. Fish and Wildlife, they 
have listed several potential changes in regulations related to 
ivory trade within the U.S., and many museums and antique 
dealers and scrimshanders are concerned that the rules could 
inadvertently but not drastically impact their trade while 
economically affecting U.S. consumers. When you are dealing 
with these regulations, will you be able to draw the lines 
clearly enough so there won't be any inadvertent effect?
    Mr. Dreher. We are looking very closely at that. As you 
know, we are hoping to be able to get a draft rule out on the 
street very soon that would reflect the input we received from 
the interest groups that you have discussed and other folks 
that have, you know, well-intentioned interests that they are 
trying to maintain.
    Our sole goal in trying to regulate the ivory trade in the 
United States is to eliminate the potential for it to serve as 
cover for illegal ivory. And there are di minimis amounts of 
ivory that are included, for example, in old musical 
instruments. And our goal is not to impede the movement of 
orchestras in and out of the United States. They are subject to 
CITES regulations, but we do everything we can to facilitate 
that. Similarly, we are going to do everything we can to 
accommodate truly di minimis uses of ivory. But the heart of 
the issue is, things that are multi-million-dollar antique 
ivory carvings are going to have to be able to demonstrate 
provenance. They are going to have to be able to demonstrate 
that they were not created, brought into the country, and then 
passed off as antique ivory. We had a major case just a year 
ago, where we--and John's folks successfully prosecuted an 
antiques dealer in Philadelphia who had a ton of ivory. And he 
was having it antiqued in Africa and shipped here to be passed 
off. That is what our concern is, is that our market here will 
end up being a front for illegal ivory. And we are going to do 
our best to cut down that kind of big-scale use.
    Mr. Keating. Lastly, in enforcement, it is so difficult 
because you are dealing with so many different nations. Some of 
them have varying degrees of rule of law. But one of the areas 
that you mentioned, Mr. Cruden, in terms of forfeiture, it is 
more administrative in nature. It is something that I think 
could be enforced a little better than a rule of law and 
actually going through judicial proceedings. Is there hope for 
that and getting into bank accounts and providing from 
enforcement people an incentive to go after these people in 
different countries?
    Mr. Cruden. I want to answer in two ways: One of them is 
what we are doing; and, second, what we are promoting because, 
I told you, we are trying to do capacity building, and we are 
right now trying, working to set up programs in Africa. For us 
to be effective, for us to really deter illegal conduct, we 
have to make it not profitable. Even though we are seeking 
sentences, and we are putting people to jail. There is no 
question people are going to jail. That is not a bad deterrent 
effort, by the way, is putting you in jail. But that does not 
mean we are getting the higher network. That is what you do 
with RICO-like capability.
    But when we are seeking restitution, when we are seeking to 
take the profit out of crime, right now what our statute does 
is we can actually do anything you do illegally. But some of 
these people are involved in a whole host of trafficking, some 
illegal, some not. And that would be one advantage is if we had 
a broader authority that we could take all of the profit out of 
it. But when we are going overseas--because sometimes it is 
very hard for them to come up with a penalty analysis, but it 
is not as hard for them to talk about restitution. It is not as 
hard to talk about seizing the assets of the illegal act. That 
is easier conceptually and easier for their courts to get their 
hands around. So not only is it valuable for us, but I think it 
is also valuable for us to explain and help and build capacity 
in some of these prosecutors that we are dealing with.
    Mr. Keating. And the timeframe can be drastically reduced, 
too.
    Mr. Cruden. Yes, and the time frame is quickly reduced.
    Mr. Keating. I yield back.
    Mr. Poe. I have a couple of questions, and I am going to 
yield to a member that has joined us on the panel. I understand 
that, on Saturday, Thailand seized 4 metric tons of ivory. We 
have a Fish and Wildlife enforcement agent there in Bangkok. 
First of all, how many elephants would you have to kill to get 
4 metric tons of ivory? All right. Somebody majored in math. 
Seriously, how many elephants are we talking about for 4 metric 
tons of ivory? Anybody have an idea, Mr. Dreher?
    Mr. Dreher. My rule of thumb on this I think is that a tusk 
is about 20 pounds. So if you are talking about an adult 
elephant, 2 tusks, 40 pounds, to get to 4 metric tons, you are 
talking thousands of elephants that had to go into that 
shipment.
    Mr. Poe. So since we have an enforcement agent there in 
Bangkok from Fish and Wildlife, is there anything we can do to 
help Thailand track the criminal networks responsible for this 
slaughter of elephants?
    Mr. Dreher. That is exactly why he is there. I wish I could 
take credit for the fact that it was our enforcement agent that 
helped bring this seizure to fruition, but I don't have that 
information. But what I can tell you is the reason we are 
placing attaches there and in the other locations we are 
proposing, all of which are hot spots for wildlife trafficking, 
is precisely to be able to coordinate with the law enforcement 
authorities of the country, with the other Federal agencies 
that are part of the Embassy and part of the mission there, and 
to try to coordinate this information.
    Mr. Poe. If I did my math right, there were 740 tusks at 20 
bucks a piece. That is $14,800.
    Ambassador Garber. Our colleagues in the back who can 
actually do math better than me sitting here can actually do, 
are saying it is approximately 500 elephants.
    Mr. Poe. 500 elephants. Okay. I am going to ask unanimous 
consent that we have a Member that is not on the Foreign 
Affairs Committee ask questions, unless there is some 
objection, for Mr. DeFazio to be recognized for his question.
    Mr. DeFazio. Thank you for not objecting, Mr. Chairman. I 
appreciate it.
    First, I would observe, Mr. Chairman, that I did introduce 
a bill today we called--cleverly--called the TUSKER Act, H.R. 
1945, that would require that countries that are identified 
under CITES as significant source, transit, or destination 
points for illegal ivory or rhino horn, immediately enter into 
consultations with the U.S. to discuss measures to end their 
importation and facilitation. Absent that, then the U.S. has 
the option of imposing sanctions. I think the Chinese with 
their, whatever their current trade deficit is with the U.S. at 
risk, would take some measures.
    And I actually got some of the ideas from Jack Fields, 
former Republican Representative from Texas. You might know 
Jack. Jack worked on this on a bipartisan basis the last time 
we had a huge crisis. And we did pass a bill. It was 
particularly targeted at Hong Kong and some other areas at that 
point. They got the message pretty quickly, and it stopped. 
But, of course, now ivory is infinitely more valuable than it 
was then, and now you are talking about dealing with Lord's 
Resistance Army or ISIS or who knows who are financing their 
nefarious activities with this.
    I would just put to the panel, I mean, first, I am not 
aware that, even though the President has CITES--has authority 
under Pelly, that he has thought about or has initiated any use 
of it against these target countries, even though we are 
initiating rules here. Secondly, if you are not aware of that, 
don't you believe that, given the fact that absent us sending 
in the SEALS and the Special Forces to level the playing field 
in terms of weaponry, that this is one of the best things the 
U.S. could do, which is to threaten meaningful sanctions 
against Vietnam, China, and the other major importers who are 
facilitating this trade.
    So two questions, one, has there been any consideration or 
discussion of invoking Pelly, yes or no? And if not, would this 
not be potentially an effective tool?
    Mr. Dreher. I am not aware of discussions within the 
administration of invoking Pelly. I know that it is an issue 
that from time to time is raised with us and that we do 
consider.
    As to the issue of trade sanctions, I mean, a part of me 
wants to say that one of the great facts of coming to this 
hearing is that we are seeing people, including this 
committee--and we are very grateful for it--taking the wildlife 
trafficking crisis very seriously. And one of our messages has 
been throughout the National Strategy and our testimony here 
today that it should be considered to be on a par with other 
forms of extremely dangerous and lucrative international 
organized crime. And so we ask for the full strength of the 
government to be brought against it. I can't, however, give you 
any answer on the specific issue that you have raised for your 
bill about applying trade sanctions. There is a host of issues 
that would go into that, and I know that----
    Mr. DeFazio. Sure. We always give into the Chinese, let 
them run a huge trade deficit, and steal our jobs. But maybe 
this is a time when we stand up for the last remaining 
elephants on Earth; send them a strong message; and say, ``Hey, 
you want us to pay you $200 billion more in deficit next year, 
well, guess what, not going to happen unless you''--and I know 
you can't go there with this administration, but since the 
administration has not shown any inclination to act 
meaningfully. It is one thing to go after some guy who was 
trying to bring a piano back into the U.S., and I did see that 
load of stuff, which was antiqued, and that was massive and 
huge, and I am glad you got him. But you need to be careful in 
writing this rule in terms of, you know, going so far that we 
end up--there is a provision Congress passed in the Gingrich 
era--rarely used--the Congressional Review Act, where every 
rule of major importance has to come to Congress for 60 days, 
and it can be essentially vetoed by Congress.
    So the rule needs to be very thoughtfully done. I mean, 
when you get people excited about little, tiny embellishments 
in a gunstock and stuff like that, that is something we don't 
need. Thank you. Mr. Chairman.
    Mr. Dreher. If I could just supplement my answer because I 
am informed that in fact we are looking at the issue of Pelly 
sanctions with regard to Vietnam and its role in the rhino horn 
trade, and we are also looking at Mozambique. So those things 
are being considered for those two countries.
    Mr. DeFazio. Thanks. Let's look at China on ivory. I know 
it is tough to ever stand up to China, but we should do that.
    Ambassador Garber. If I could add and supplement what Mr. 
Dreher said, in our negotiations of the Trans-Pacific 
Partnership as well our negotiations with the European Union on 
possibly a transatlantic trade agreement, we are including 
environmental aspects, including wildlife trafficking, that 
would be subject and bound to dispute resolution and binding 
enforcement. So that is one tactic we are taking to look at the 
trade side.
    And, specifically with regard to China, we have certainly 
been elevating the issue of wildlife trafficking in our 
engagement with the highest levels of Chinese Government. 
President Obama has raised it to President XI. I know that 
Secretary Kerry has raised it and will be using it again during 
a strategic and economic dialogue. I know that the Treasury 
Secretary raised it when he was just out in China last month. 
And I believe we have agreement to be raising it at the highest 
levels.
    What we have found with China is that really significant 
change is going to have to come from the top down. We saw that 
with the success of shark fin. So we believe that we are really 
making some progress, and we are going to continue on a 
sustained basis raising this at the highest diplomatic levels.
    Mr. DeFazio. I appreciate hearing that.
    Thank you for your generous grant of time, Mr. Chairman.
    Mr. Poe. Thank you for being here.
    One last comment following up on Ambassador Garber. China 
is by far the number one offending nation as far as where this 
ivory ends up. Is that a fair statement?
    Ambassador.
    Ambassador Garber. Yes, that is our understanding.
    Mr. Poe. And then Vietnam would be the number one nation 
where rhino tusks end up. Is that correct?
    Ambassador Garber. Yes.
    Mr. Poe. Thank you all for being here. Members have 5 days 
to submit other questions and statements for the record.
    And this subcommittee is adjourned. Thank you all.
    [Whereupon, at 4 o'clock p.m., the subcommittee was 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                 Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT


                                 [all]
</pre></body></html>
